                                              U.S. Department of Justice

                                              United States Attorney
                                              Northern District of Illinois

Patrick J. Fitzgerald                         327 South Church Street, Suite 3300
United States Attorney                        Rockford, Illinois 61101

FOR IMMEDIATE RELEASE                                  PRESS CONTACT:
FRIDAY, APRIL 27, 2012                                 AUSA Scott A. Verseman (815) 987-4444
www.justice.gov/usao/iln


DEKALB WOMAN PLEADS GUILTY TO THEFT OF SOCIAL SECURITY BENEFITS

       Rockford — A DeKalb, Ill. woman pleaded guilty today to stealing Social Security

retirement benefits that were payable to her deceased mother. Laverne F. Torrey, 59, of DeKalb,

entered her guilty plea today in federal court in Rockford, during a hearing conducted by U.S.

District Judge Frederick J. Kapala.

       According to the written plea agreement, prior to her death, Torrey’s mother received Social

Security retirement benefits which were deposited directly into a checking account at a Chicago

bank. Both Torrey and her mother were signatories on the account. Torrey’s mother died in March

2009, and Torrey admitted that she knew she was not entitled to receive her mother’s Social Security

retirement benefits after her mother’s death. Despite this fact, Torrey failed to notify the Social

Security Administration of her mother’s death and instead continued to collect benefits that were

deposited into the checking account. Torrey acknowledged that from April 2009 through August

2011, she illegally obtained a total of $37,207 in Social Security retirement funds that were payable

to her deceased mother. Torrey also admitted that she spent all of these Social Security retirement

benefits, for her own personal expenses.

       The charge in this case carries a maximum penalty of 10 years in prison, and a $250,000

maximum fine. Torrey has already paid full restitution. The actual sentence will be determined by

the United States District Court, guided by the advisory Sentencing Guidelines. Torrey’s sentencing

is scheduled for August 14, 2012, at 9:30 a.m.
       The guilty plea was announced today by Patrick J. Fitzgerald, United States Attorney for the

Northern District of Illinois, and William Cotter, Special Agent-In-Charge of the Chicago Field

Division of the Social Security Administration - Office of the Inspector General.

       The government is represented by Assistant U.S. Attorney Scott A. Verseman.

                                            #####
